OIG Audit Report 02-07
Maintenance and Disposal of Seized and Forfeited Assets
in Selected Western Districts
Report No. 02-07
March 2002
Office of the Inspector General
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
VEHICLES
VESSELS
CASH/CURRENCY AND FINANCIAL INSTRUMENTS
JEWELRY
BEST PRACTICE
APPENDIX ISTATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS
APPENDIX IISTATEMENT ON MANAGEMENT CONTROL STRUCTURE
APPENDIX IIIAUDIT OBJECTIVES, SCOPE, AND METHODOLOGY
APPENDIX IVUSMS RESPONSE TO DRAFT REPORT